<html>
<title> - FEDERAL LANDS IN HENDERSON, NV; FORT RENO, OK; EUGENE, OR; GREEN RIVER, WY; AND RIVERSIDE COUNTY AND SAN DIEGO COUNTY, CA</title>
<body><pre>[Senate Hearing 109-444]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-444

 
FEDERAL LANDS IN HENDERSON, NV; FORT RENO, OK; EUGENE, OR; GREEN RIVER, 
           WY; AND RIVERSIDE COUNTY AND SAN DIEGO COUNTY, CA

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 1056                               S. 1832

                           S. 2150                               S. 2373

                           H.R. 3507



                                     

                               __________

                             MARCH 29, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-333                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Benna, Lawrence E., Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................     5
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Inhofe, Hon. James M., U.S. Senator From Oklahoma................     2
Knipling, Dr. Edward B., Administrator, Agricultural Research 
  Service, 
  Department of Agriculture......................................     2
Thomas, Hon. Craig, U.S. Senator From Wyoming....................    11
Wyden, Hon. Ron, U.S. Senator From Oregon........................    10

                                APPENDIX

Additional material submitted for the record.....................    15


FEDERAL LANDS IN HENDERSON, NV; FORT RENO, OK; EUGENE, OR; GREEN RIVER, 
           WY; AND RIVERSIDE COUNTY AND SAN DIEGO COUNTY, CA

                              ----------                              


                       WEDNESDAY, MARCH 29, 2006

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone. The Subcommittee 
on Public Lands and Forest will be in order. Let me welcome 
everyone in attendance before the committee this afternoon. And 
a special welcome to our two panelists this afternoon, Dr. 
Edward Knipling, administrator for Agricultural Research 
Service at the Department of Agriculture, and Larry Benna, 
Deputy Director of the Bureau of Land Management. I want to 
thank both of you for being here to testify.
    We will be taking testimony today on five bills: S. 1056, 
to direct the Secretary of the Interior to convey to the city 
of Henderson, Nevada, certain Federal land located in the city, 
and for other purposes; S. 1832, to authorize the Secretary of 
the Interior to lease oil and gas resources underlying Fort 
Reno, Oklahoma, to establish the Fort Reno Management Fund, and 
for other purposes; S. 2150, to direct the Secretary of the 
Interior to convey certain Bureau of Land Management Lands to 
the city of Eugene, Oregon; S. 2373, to provide for the sale of 
approximately 132 acres of public land in the city of Green 
River, Wyoming, at a fair market value; and H.R. 3507, to 
transfer certain land in Riverside County, California, and San 
Diego County, California, from the Bureau of Land Management to 
the United States to be held in trust for the Pechanga Band of 
Luiseno Mission Indians, and for other purposes.
    And Senator Wyden, I expect, will be here in a few moments 
to make comments in relation to the Eugene, Oregon, bill; and 
Senator Craig Thomas will be here in relation to the Green 
River bill.
    We will observe the 5-minute rule for testimony. The 
hearing will take all information. The record will remain open 
for 10 days for the purposes of additional testimony.
    So, with that, let us go directly to our panelists today.
    Dr. Edward Knipling, administrator, Agricultural Research 
Service, Department of Agriculture, welcome before the 
committee. Please proceed.
    [The prepared statement of Senator Inhofe follows:]

       Prepared Statement of Hon. James M. Inhofe, U.S. Senator 
                       From Oklahoma, on S. 1832

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today and for holding this hearing on 
``The Fort Reno Mineral Leasing Act'' (S. 1832).
    Fort Reno was established as a frontier cavalry post in 1874, and 
it played a key role in the settlement of the west. It is a historic 
site of National significance and it is listed on the National Register 
of Historic places. Over 9,000 visitors view the fort each year.
    In 1948 the U.S. Army turned its lands and buildings, at Fort Reno, 
over to the U.S. Department of Agriculture. Today, the original site 
remains intact as a complete frontier post. Dozens of buildings 
constructed by the military, as early as the 1880's, still stand around 
the Historic District.
    The Agricultural Research Service administers the fort site which 
includes the Grazinglands Research Facility, the Fort Reno Historic 
District, and the Fort Reno Science Park.
    Many of the historic buildings are in desperate need of 
restoration. A small agency like the Agricultural Research Service is 
not financially able to keep up with the continued costs of maintenance 
of so much aged infrastructure. Independent studies show that over $18 
million is now needed to restore the most important of the many old 
officers' quarters and other key buildings.
    I have been an active supporter of Fort Reno and its facilities. 
For instance, several years ago I helped secure a Save America's 
Treasures Grant of $300,000 to assist a local historical organization 
with the costs of stabilization of exteriors on those deteriorating 
buildings that are most in need of renovation. In fiscal year 2004, I 
arranged for an appropriation of $2.1 million for construction of two 
greenhouses for use in research on forage grasses that is conducted by 
the Agricultural Research Service at the Fort Reno site.
    This legislation will provide a revenue-neutral, non-appropriated 
source of funding which will be adequate to restore the historical 
buildings of Fort Reno, so they will be here for future generations.
    In addition, this bill authorizes the development of the oil and 
gas that lies beneath Fort Reno's 6,737 acres and places those funds in 
a special account in the U.S. Treasury that will be utilized for 
restoration and maintenance of those facilities. These funds will also 
be used to assist with handling visitors to the fort, historic 
interpretation and related activities. The remaining funds will be used 
to pay down the national debt.
    The Fort Reno Mineral Leasing Act is fully supported by the 
governor of Oklahoma, state legislators, local municipalities, the El 
Reno Chamber of Commerce, the Farm Bureau, the Farmers Union, the 
Oklahoma Independent Producers Association, the Oklahoma Historical 
Society, the ARS Administrator at Fort Reno, and both Senator Coburn 
and me.
    I look forward to working with the committee on this Oklahoma 
specific legislation in markup and toward final passage.
    Again, I thank you for allowing me to appear here to today in 
support of this legislation. Mr. Chairman, this concludes my remarks.

      STATEMENT OF DR. EDWARD B. KNIPLING, ADMINISTRATOR, 
         AGRICULTURAL RESEARCH SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Dr. Knipling. Thank you, Mr. Chairman. I am, indeed, 
pleased to be here, and appreciate the opportunity to speak on 
behalf of S. 1832.
    As you indicate, I'm the administrator of the USDA 
Agricultural Research Service. We are the science research arm 
of USDA and, as such, we operate over 100 different laboratory 
locations throughout the Nation on all aspects of agricultural 
science.
    I'm here today to present the administration's views on S. 
1832, as you said, the Fort Reno Mineral Leasing Act. Before I 
provide my remarks, I'd like to submit my full testimony for 
the record.
    Senator Craig. Without objection, it'll become a part of 
the record, Doctor.
    Dr. Knipling. Mr. Chairman, we appreciate the intent of S. 
1832 to continue the preservation of facilities within the 
historic Fort Reno district; however, the administration does 
have concerns with the establishment of a mandatory fund from 
mineral revenues that would normally be deposited in the U.S. 
Treasury. We look forward to working with the bill sponsor, 
Senator Inhofe, and members of this committee as the process 
goes forward.
    S. 1832 deals with the Grazinglands Research Laboratory, 
which is administered by ARS at El Reno, Oklahoma. This 
laboratory is at the forefront of providing new technologies 
and management strategies to increase the profitability of 
forage and livestock production, while at the same time 
promoting sustainability and productivity in the Nation's 
grazing land resources. ARS-administered land at this location 
comprises over 6,700 acres of land and more than 80 buildings, 
some of which are historic structures within the Fort Reno 
Historic District. These consist of former U.S. Cavalry 
installation structures dating from the late 1800's.
    USDA acquired the real property by transfer from the U.S. 
War Department in 1948, and has managed the land for grazing 
land research ever since. We have also used some of our 
research funds to maintain, preserve, or restore some of the 
historic buildings.
    The proposed legislation would authorize the Secretary of 
the Interior, through the Bureau of Land Management, to lease 
oil and gas resources under the land, with some of the receipts 
from leasing being deposited into a Fort Reno Management Fund 
to be used for restoration and management of the historic 
facilities, as well as to provide visitor and interpretive 
services.
    The bill would also ratify and strengthen our ongoing 
cooperative research activities with the University of 
Oklahoma, and authorize the Secretary of Agriculture to lease 
land for cooperative research and related activities.
    Finally, section three of the bill will require 
congressional authorization to declare the Federal land at the 
Fort Reno Management Area surplus or excess or otherwise 
conveyed. This provision makes permanent the existing 
requirements of law already contained in the 2002 farm bill, 
which expires at the end of 2007. Notwithstanding any provision 
of law, ARS has no plans or intentions to curtail its research 
activities at Fort Reno or to declare any lands excess or 
surplus.
    In summary, Mr. Chairman, ARS is very proud of the 
contributions made to agricultural science and to farmers and 
ranchers by the work we do at the Grazinglands Research 
Laboratory. We very much appreciate the interest of this 
committee in the laboratory's programs and strategies for 
preserving the historic structures.
    Mr. Chairman, this concludes my remarks, and I'd be pleased 
to answer any questions that you might have later.
    Thank you.
    [The prepared statement of Dr. Knipling follows:]

     Prepared Statement of Dr. Edward B. Knipling, Administrator, 
  Agricultural Research Service, Department Of Agriculture, on S. 1832

    Mr. Chairman and Members of the Subcommittee, I am Edward B. 
Knipling, Administrator of the Agricultural Research Service (ARS). We 
are the primary intramural science research agency of the United States 
Department of Agriculture (USDA). ARS operates a network of over 100 
research laboratories across the nation on all aspects of agricultural 
science.
    Thank you for the opportunity to appear before the Subcommittee 
today to present the Department's views on S. 1832, the Fort Reno 
Mineral Leasing Act. We appreciate the intent of S. 1832 to continue 
the preservation of facilities within the Historic Fort Reno District. 
However, the Administration has serious concerns with the establishment 
of a mandatory fund from mineral revenues that would normally be 
deposited in the U.S. Treasury; therefore we recommend that section of 
the bill be removed. We look forward to working with the bill sponsor, 
Senator Inhofe, and the Committee to address our concerns as the 
process moves forward.
    S. 1832 deals with the Grazinglands Research Laboratory 
administered by the Agricultural Research Service (ARS) at El Reno, 
Oklahoma. The Grazinglands Research Laboratory is at the forefront of 
providing new technologies and management strategies to increase the 
profitability of forage and livestock production while, at the same 
time, promoting sustainability and productivity of the nation's grazing 
land resources. ARS administered land comprises over 6,700 acres and 
more than 80 buildings, part of which are historic structures within 
the Fort Reno Historic District consisting of the former U.S. Cavalry 
installation dating from the late 1800s. USDA acquired the real 
property by transfer from the U.S. War Department in 1948, and has 
managed the land for grazing lands research ever since. The bill 
defines the entire area collectively as the Fort Reno Management Area.
    The bill would authorize the Secretary of the Interior to lease oil 
and gas resources under the land, with some of the receipts from 
leasing being deposited into a Fort Reno Management Fund to be used for 
restoration and management of historic facilities as well as visitor 
and interpretive services. The bill would provide that the land 
comprising the Fort Reno Management Area would not be declared surplus 
or excess federal property without an Act of Congress. Finally, the 
bill would ratify and strengthen our ongoing cooperative research 
activities with the University of Oklahoma, and authorize the Secretary 
of Agriculture to lease land for research and related activities.
    Concerning oil and gas leasing, all 6,700 acres of the Fort Reno 
Management Area is within the corporate boundaries of the town of El 
Reno, Oklahoma, and therefore cannot be leased under existing 
authorities without Congressional authorization. Under the authority of 
the Mineral Leasing Act, the Bureau of Land Management (BLM) is 
responsible for leasing oil and gas resources on all onshore Federal 
lands, including those lands managed by other Federal agencies. BLM is 
responsible for review, approval, and issuance of permits and licenses 
to explore, develop, and produce oil and gas resources on Federal 
lands. BLM is also responsible for inspection and enforcement of 
onshore oil and gas wells and other development operations to ensure 
that lessees and operators comply with the lease requirements and BLM's 
regulations (43 CFR 3000 and 3100).
    Sec. 3(b) of S. 1832 authorizes the Secretary of the Interior to 
provide for mineral leasing under the Mineral Leasing Act in the Fort 
Reno Management Area, subject to terms and conditions set by the 
Secretary of Agriculture to preserve and protect historic properties 
and ongoing and prospective research activities. Lands located within 
incorporated cities and towns are excluded from oil and gas leasing 
under the Mineral Leasing Act, and to overcome that exclusion, Sec. 
3(b)(1) of S. 1832 explicitly authorizes oil and gas leasing on the 
Federal land located within the incorporated city of El Reno, Oklahoma. 
Sec. 3(b)(2) of the bill provides that no further administrative or 
environmental analyses shall be required for the leasing and 
development of minerals at the Fort Reno Management Area.
    Section 3 of the bill will require Congressional authorization to 
declare the Federal land at the Fort Reno Management Area surplus or 
excess or otherwise conveyed. This provision makes permanent the 
existing requirements of law already contained in section 10804 of the 
Farm Security and Rural Investment Act of 2002, which expire at the end 
of 2007. Notwithstanding any provision of law, ARS has no plans or 
intentions to curtail its research program at Fort Reno, or to declare 
any lands excess or surplus.
    Sections 5 and 6 provide ARS with authorities to continue its very 
productive and mutually beneficial research relationship with the 
University of Oklahoma. The University has currently constructed 
facilities in the Fort Reno Management Area under easement arrangements 
with ARS, and there are plans for future cooperative ventures. We 
believe this cooperation can be furthered by granting ARS leasing 
authority.
    In summary, ARS is justly proud of the contributions made by the 
Grazinglands Research Laboratory to improving American agriculture. We 
appreciate the interest in the Laboratory and the Fort Reno Historic 
District within the Fort Reno Management Area shown by S. 1832. Mr. 
Chairman, this concludes my remarks. I would be happy to answer any 
questions.

    Senator Craig. Doctor, thank you very much.
    Now let us turn to Larry Benna, deputy director for the 
Bureau of Land Management.
    Larry, welcome.

       STATEMENT OF LAWRENCE E. BENNA, DEPUTY DIRECTOR, 
         BUREAU OF LAND MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Benna. Thank you very much, Mr. Chairman.
    I'm here today to testify on four different lands bills 
proposed. I thank you for the opportunity to testify.
    The Bureau of Land Management manages nearly 262 million 
acres of surface land, primarily in 12 Western States. As the 
Nation's largest Federal land manager, we administer the public 
lands for a wide range of multiple uses.
    The Federal Land Policy and Management Act, or FLPMA, 
directs the BLM to make decisions about the appropriate use of 
the public lands through the development of resource management 
plants, which involve extensive public participation. Where 
appropriate, FLPMA allows the BLM to convey certain lands out 
of public ownership if, for example, it has been identified for 
disposal through a land-use planning process and serve 
important public objectives, such as community expansion and 
economic development.
    In partnering with local communities across the West, we 
understand there are needs and are efforts that ensure a 
balanced approach to local land-use management. At the same 
time, we make every effort to ensure that taxpayers are fairly 
compensated for the removal of public lands from Federal 
ownership, and that the conveyances are in the public interest.
    The various BLM-related bills before the subcommittee today 
cover a wide range of Federal land issues, but, at their core, 
all are intended to support the needs of local communities. I 
will discuss each individual bill.
    S. 1056, the Southern Nevada Limited Transition Area Act, 
would convey, without consideration, approximately 547 acres of 
BLM public lands to the city of Henderson, Nevada, for economic 
development adjacent to the Henderson Executive Airport. The 
bill permits the city of Henderson to sell any portions of the 
conveyed lands for nonresidential development through a 
competitive bidding process. Eighty-five percent of the 
revenues generated from the sales would be deposited into the 
special account established by the Southern Nevada Public Lands 
Management Act and used by the Secretary of the Interior for 
the uses specified in the Act.
    BLM recognizes the growth occurring in the city of 
Henderson and supports S. 1056. We would like to work with the 
committee and sponsors of the bill on several changes dealing 
with the terms and conditions or any future sales of the lands 
by the city of Henderson, the reversionary clauses, and other 
minor modifications.
    S. 2150, the Eugene Land Conveyance Act, directs the 
Secretary of the Interior to convey to the city of Eugene, 
Oregon, without consideration and subject to valid existing 
rights, a parcel of approximately 12 acres currently under the 
administrative jurisdiction of the BLM for the purposes of 
constructing an environmental education center and establishing 
a wildlife viewing area. This parcel is located within the city 
limits of Eugene, Oregon.
    The BLM purchased the parcel in 1979, for $510,000. Oregon 
and California appropriated--grant-lands appropriated funds. If 
the parcel to be conveyed under S. 2150 were public-domain 
land, the BLM could convey it under the authority of the 
Recreation and Public Purposes Act. However, because the BLM 
purchased the parcel with O&C funds, it is designated as 
revested Oregon and California railroad grant lands, and the 
Recreation and Public Purposes Act does not apply. The BLM 
supports the conveyance authorized by S. 2150.
    S. 2373, the city of Green River Land Conveyance Act, 
directs the BLM to sell, at appraised fair market value, 
approximately 132 acres of public land to the city of Green 
River, Wyoming. The land would be used for development along 
Interstate 80, east of Green River, a growing community that 
needs room to expand.
    The BLM supports S. 2373, but would like to work with the 
sponsors of the bill and the committee on certain changes, 
including the timeframes established in the bill, in order to 
ensure sufficient time for completion of the processes and work 
necessary to do the conveyance.
    Finally, H.R. 3507, the Pechanga Band of Luiseno Mission 
Indians Land Transfer Act, directs the Secretary of the 
Interior to transfer two parcels of public land, totaling 
approximately 991 acres in Riverside, California, currently 
managed by the BLM, into trust status for the benefit of the 
tribe. The BLM has worked with the tribe over the past several 
years concerning their interest in acquiring these two parcels 
of land to add to their reservation for protection of their 
cultural, historic, and natural values.
    In 2005, the tribe entered into a memorandum of 
understanding with the Fish and Wildlife Service and the BLM, 
which states that the tribe will manage the lands for 
conservation purposes. The bill requires the lands be managed 
in accordance with this memorandum.
    The Department of the Interior supports H.R. 3507, but we 
do recommend certain technical and clarifying amendments that 
are outlined in my written testimony.
    Mr. Chairman and members of the subcommittee, this 
concludes my statement. I will be happy to try and answer any 
of your questions.
    [The prepared statement of Mr. Benna follows:]

  Prepared Statement of Lawrence E. Benna, Deputy Director, Bureau of 
 Land Management, Department of the Interior, on S. 1056, S. 2150, S. 
                          2373, and H.R. 3507

    Mr. Chairman, thank you for the opportunity to testify. The Bureau 
of Land Management (BLM) manages 261.8 million acres of surface land 
primarily in 12 western states. As the Nation's largest Federal land 
manager, the BLM administers the public lands for a wide range of 
multiple uses including energy production, outdoor recreation, 
livestock grazing, and by conserving natural, historical, cultural, and 
other resources. The Federal Land Policy and Management Act (FLPMA) 
directs the BLM to make decisions about the appropriate use of the 
public lands through the development of resource management plans using 
a collaborative public process.
    FLPMA allows the BLM to convey lands out of public ownership if, 
for example, they have been identified for disposal through the BLM 
land use planning process in order to serve important public 
objectives, such as community expansion and economic development. In 
partnering with local communities across the West, we understand their 
needs and are supportive of efforts that ensure a balanced approach to 
local land use management. As a matter of both policy and practice, the 
BLM generally requires receipt of fair market value for any public 
lands transferred out of public ownership. This serves to ensure that 
taxpayers are fairly compensated for the removal of public lands from 
Federal ownership while also supporting local communities.
    The various BLM-related bills before the Subcommittee today cover a 
wide range of Federal land issues, but at their core all are intended 
to support the needs of local communities. I will discuss each bill 
individually.

          S. 1056, SOUTHERN NEVADA LIMITED TRANSITION AREA ACT

    S. 1056, the Southern Nevada Limited Transition Area Act, would 
convey without consideration approximately 547 acres of BLM public 
lands, defined in the bill as the ``transition area,'' to the City of 
Henderson, Nevada, for economic development adjacent to the Henderson 
Executive Airport. The BLM recognizes the massive residential growth 
occurring in the City of Henderson, and understands the need for the 
City to plan land use in such a way that development around the 
Henderson Executive Airport is compatible with the nature of airport 
operations. The BLM supports the intent of S. 1056 and would like to 
work with the Committee and sponsors of the bill on several changes to 
clarify the terms and conditions of any future sales of the lands by 
the City of Henderson, the reversionary clauses, and other minor 
modifications.
    S. 1056 establishes development areas around the Henderson 
Executive Airport similar to the Airport Environs Overlay District--
otherwise known as the McCarran Airport Cooperative Management Area 
(CMA)--established by the Southern Nevada Public Lands Management Act 
(SNPLMA), Public Law 105-263, that ensures compatible development 
around McCarran Airport. The public lands proposed for conveyance in S. 
1056 are directly west and south of the Henderson Executive Airport, 
which is east of Interstate-15 and north of the Sloan Canyon National 
Conservation Area. These lands are within the disposal boundary 
established in SNPLMA and have been identified for disposal by the BLM 
as part of SNPLMA's land disposal process.
    S. 1056 directs the City of Henderson to plan and manage the lands 
for nonresidential development, and requires that any development 
comport with noise compatibility requirements defined in section 47504 
of title 49, United States Code. The bill permits the City of Henderson 
to sell any portions of the conveyed lands for nonresidential 
development through a competitive bidding process, but for not less 
than fair market value, and subject to the noise compatibility 
requirements. The City of Henderson may also elect to retain parcels 
for recreation or other public purposes under the Recreation and Public 
Purposes Act.
    The revenue generated from any sales of the lands by the City of 
Henderson would be distributed as follows: 85 percent would be 
deposited into the special account established by SNPLMA; 10 percent 
would be retained by the City of Henderson as compensation for costs 
incurred by the City in carrying out land sales and to fund 
infrastructure to serve the Transition Area; and 5 percent would be 
returned to the State of Nevada for use by the State's general 
education program.
    In order to ensure that the public interest is met, we recommend 
that Section 3(b) of the bill be amended to clarify that in addition to 
receiving fair market value for the direct sale of the lands, fair 
market value should also be received for any lease, exchange, or 
conveyance of the lands of any sort by the City of Henderson. This 
would be consistent with the terms in Section 4(g)(4) of SNPLMA that 
authorizes the conveyance of land by Clark County in the McCarran 
Airport CMA. We would also like to work with the Committee and sponsors 
of the bill to modify the reversionary language in Sections 3(e)(1) and 
(2) of the bill to make the language consistent and at the Secretary's 
discretion. Finally, Section 2(5) needs to be updated to reflect the 
correct date of the map entitled ``Southern Nevada Limited Transition 
Area Act.''

                  S. 2150, EUGENE LAND CONVEYANCE ACT

    S. 2150, the Eugene Land Conveyance Act, directs the Secretary of 
the Interior to convey to the City of Eugene, Oregon, without 
consideration and subject to valid existing rights, a parcel of 
approximately 12 acres currently under the administrative jurisdiction 
of the BLM for the purposes of constructing an environmental education 
center and establishing a wildlife viewing area. The BLM supports the 
conveyance authorized by S. 2150; however, we have some concerns and 
would appreciate the opportunity to work with the sponsor and the 
Committee on minor technical amendments.
    The parcel to be conveyed under S. 2150 is located within the city 
limits of Eugene, Oregon. The BLM purchased the parcel on September 21, 
1979, with $510,000 of Oregon and California Lands Act (O&C) 
appropriated funds. The BLM originally planned to build its Eugene 
District Office on the parcel; however, about half the site was 
determined to be occupied by wetlands, and the Eugene office was built 
at another location. We have not had the site appraised since the 
original purchase.
    If the parcel to be conveyed under S. 2150 were public domain land, 
the BLM could convey it under the authority of the Recreation and 
Public Purposes (R&PP) Act (43 U.S.C. 869 et seq.). However, because 
the BLM purchased the parcel with O&C funds, it is designated as 
``Revested O&C Railroad Grant Lands'', and the R&PP Act does not apply.
    An old ranch house located on the parcel, known as the ``Red 
House'', was converted for office use and currently hosts employees and 
volunteers associated with the West Eugene Wetlands (WEW) Partnership. 
The WEW Partnership includes the BLM, the City of Eugene, The Nature 
Conservancy, the U.S. Army Corps of Engineers, the Oregon Youth 
Conservation Corps, the U.S. Fish and Wildlife Service, the McKenzie 
River Trust, and the Willamette Resources and Educational Network 
(WREN). The WEW Partnership (primarily the City of Eugene and The 
Nature Conservancy) have worked to leverage Federal dollars to reach 
nearly $4.5 million for acquisition and management of the wetlands.
    In addition, the Eugene 4J School District and the Bethel School 
District joined with the WEW Partnership to form the WEW Education 
Center Partnership. This group is working to build the Wetlands 
Education Center on the parcel to be conveyed under S. 2150. The 
wetlands education program has secured funding from a wide variety of 
public and private sources, including the U.S. Department of Education, 
the City of Eugene, the Eugene 4J School District, the Environmental 
Protection Agency, the Oregon Watershed Enhancement Board, the Collins 
Foundation, and private donations. The Education Center will contain 
the Rachel Carson Center for Natural Resources (a 4J High School), the 
Northwest Youth Corps, laboratories and green houses, visiting 
classrooms and office space for WEW Partnership staff. In May 2002, 
voters in Eugene approved a school bond that included the first 
installment for construction of the Rachel Carson Center for Natural 
Resources.
    The following are concerns we would like to address through 
technical amendments:

  <bullet> Survey: The BLM has a survey from its purchase of the 
        property in 1979 that is adequate to support the BLM's issuing 
        a Quit Claim Deed to the City of Eugene. If this meets the 
        sponsor's intentions, Section 3(b)(1) should be amended to 
        state ``12.36 acres,'' and the ``Survey'' in section 3(b)(2) 
        should refer to the existing survey from the 1979 acquisition.
  <bullet> Reversion: We urge that Section 3(c) be amended to make 
        reversion at the Secretary's discretion.

            S. 2373, CITY OF GREEN RIVER LAND CONVEYANCE ACT

    S. 2373, the City of Green River Land Conveyance Act, directs the 
BLM to sell at appraised fair market value approximately 132 acres of 
public land to the City of Green River, Wyoming. The land would be used 
for development along Interstate-80 east of Green River. The Department 
of the Interior supports this proposal, but would like to work with the 
sponsors of the bill and the Committee on certain technical changes.
    Green River, Wyoming, is a growing community located west of Rock 
Springs along the Green River in southwest Wyoming. The 132 acre parcel 
proposed for conveyance straddles Interstate-80 and could be 
appropriate for community expansion. We understand this is the 
intention of the City of Green River. These lands have not been 
identified for disposal in the BLM land use planning process. The land 
is currently authorized for grazing, and sufficient access and acreage 
for grazing would remain available if the lands were conveyed. There 
are no mineral leases or mining claims on the parcel.
    S. 2373 requires the Secretary to convey all right, title, and 
interest to the land within 180 days after the City submits an offer to 
acquire the land. The proceeds from the sale of the lands are to be 
deposited in the Federal Land Disposal Account established under the 
Federal Land Transaction Facilitation Act, Public Law 106-248, to be 
expended in accordance with that Act.
    We would like an opportunity to work with the Committee and the 
sponsors of the bill on certain technical changes, including the 
timeframes established in section 3(a) of the bill in order to ensure 
sufficient time for completion of a land use plan amendment in 
accordance with section 202 of the Federal Land Policy and Management 
Act and completion of the necessary environmental reviews and 
clearances.

 H.R. 3507, PECHANGA BAND OF LUISENO MISSION INDIANS LAND TRANSFER ACT

    H.R. 3507 is substantially similar to legislation (H.R. 4908) on 
which we testified in the 108th Congress. This legislation directs the 
Secretary of the Interior to transfer two parcels of public land 
totaling approximately 991 acres in Riverside County, California, 
currently managed by the Bureau of Land Management (BLM), into trust 
status for the benefit of the Pechanga Band of Luiseno Mission Indians.
    The Department of the Interior supports H.R. 3507, but recommends 
certain technical and clarifying amendments to the bill. While several 
of the changes we recommended when we testified during the 108th 
Congress have been remedied in H.R. 3507, certain issues remain.
    The BLM has worked with the Pechanga Band of Luiseno Mission 
Indians over the past several years concerning their interest in 
acquiring these two parcels of land to add to their reservation. Both 
parcels are covered by BLM's 1994 South Coast Resource Management Plan 
(RMP), which does not identify the parcels for disposal. The Department 
understands that the Tribe has passed a Tribal resolution committing 
the Tribe to conserving the parcels' cultural and wildlife values. In 
addition, on November 11, 2005, the Tribe entered into a Memorandum of 
Understanding (MOU) with the U.S. Fish and Wildlife Service and the 
BLM, which states that the Tribe will manage the lands for conservation 
purposes. Recognizing the Tribe's interest in obtaining the land for 
cultural and conservation purposes, the BLM today would be supportive 
of amending its land use plan to enable the transfer to proceed. 
However, that process could take several years to complete and the 
Tribe has sought this legislation to obtain the parcels more quickly 
through the legislative process.
    The first parcel is 19.83 acres and contains significant cultural 
properties, including burials, of high importance to the Tribe. It is 
an isolated public land parcel characterized by rolling coastal sage 
scrub and surrounded by private, generally residential, lands. In 
response to potential threats to the cultural resources of the parcel, 
the BLM instituted a Public Land Order (No. 7343) in 1998 that withdrew 
the entire parcel from surface entry, mining, mineral leasing, and 
mineral material sales. No other encumbrances, including mining claims, 
are known to exist on the lands. A Memorandum of Understanding between 
BLM and the Pechanga Tribe was initiated in 2001 which outlines 
cooperative management of the parcel, including preservation of its 
cultural resources values. The Tribe owns and maintains an adjacent 
parcel of land containing another portion of the Pechanga Historical 
Site.
    The second, and much larger parcel, is 970.96 acres and is adjacent 
to the Tribe's reservation. These lands are included in the Western 
Riverside County Multi-Species Habitat Conservation Plan and the Fish 
and Wildlife Service (FWS) has found them to be significant for their 
connectivity with rivers and as a wildlife corridor. The Tribe and 
others were consulted on the Plan, and these wildlife values are 
encompassed in the Tribal resolution referenced above. This rugged 
parcel is characterized by a dense mix of oak woodlands, chaparral and 
coastal sage scrub, and slopes throughout the parcel are steep and 
eroded. The parcel also includes a service road right-of way, as well 
as a 10-inch waterline and water tank that was granted for 30 years to 
the Rainbow Municipal Water District in 1983. No other encumbrances, 
including mining claims, are known to exist within this parcel.
    Finally, H.R. 3507 requires that the land conveyed to the Pechanga 
be administered in accordance with the MOU referenced above between the 
Tribe, the U.S. Fish and Wildlife Service, and the BLM.
    While the Department of the Interior supports the transfer of the 
lands from the BLM to the Tribe, we recommend a few technical and 
clarifying amendments. First, the bill requires the BLM to complete a 
new survey. We recommend that the lands to be transferred be surveyed 
``as soon as practicable,'' rather than within 180 days, as currently 
required by the bill.
    Second, we recommend language be added to the bill that specifies 
that any improvements, appurtenances, and personal property will be 
transferred to the Tribe in fee at no cost and that the Department of 
the Interior is not responsible for any improvements, appurtenances, 
and personal property that may be transferred along with the lands. The 
Department feels this change is necessary to address concerns about the 
Federal government having a fiduciary obligation to repair and maintain 
any acquired improvements.
    Third, the bill references the MOU between the Tribe and the U.S. 
Fish and Wildlife Service. The BLM also was a signatory of the MOU and 
we recommend that the measure reflect that.
    Finally, the BLM recently became aware of an unauthorized power 
line on a small portion (12.8 acres) of the southwest edge of the 
larger parcel to be transferred. We understand the power line was built 
in 1979. We would like to work with the Subcommittee and the bill's 
sponsor to address this matter.
    The Department has had a cooperative working relationship with the 
Pechanga Tribe on the proposed land transfer and supports the bill's 
enactment with the necessary modifications we have outlined.
    Mr. Chairman, this concludes my testimony. I will be happy to 
answer any questions.

    Senator Craig. Well, Larry, thank you very much for your 
testimony.
    Before we come back to both of you for questions, I've now 
been joined by my colleagues from Oregon and Wyoming. Let me 
turn first to Senator Ron Wyden to make any comments he would 
wish to make on any of these pieces of legislation, but I 
assume, more specifically, the city of Eugene issue.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. And thank 
you for holding this hearing, as well. I think, like everyone 
today, we're being pulled in just so many directions, and I 
just wanted to stop by for a minute and talk about my support 
for S. 2150.
    This is another piece of legislation where Senator Smith 
and I have teamed up. We try to tackle all of these issues in a 
bipartisan way because of their importance for Oregon. The 
education center that is envisioned by this legislation would 
be the culmination of over a decade of work on the part of 
local folks to preserve the West Eugene Wetlands. This is a 
planned campus that would eventually hold laboratories, 
greenhouses, a reference library, and public gathering places 
that would include an exhibit hall, an auditorium, and three 
classrooms that serve the 2,200-acre West Eugene Wetlands.
    Senator Smith and I have felt that with the city of Eugene 
as a key partner with the BLM and others in building this 
environmental education center, it would really be a model for 
a collaborative approach that involves the BLM and the wetland 
partnership that we think could have national implications for 
environmental education. The Rachel Carson Natural Resource 
School would be moved from its current location at Churchill 
High School to this site to serve as a magnet school with 
several districts in Lane County eligible for services and 
participating in the Youth Corps programs, as well. Part of 
those Youth Corps in the area, which you and I have talked 
about, is adjudicated youth, which I think is a natural for the 
kind of multiple-use approach that you and I have looked for in 
the natural resources area, and that Senator Thomas has been so 
supportive of, as well.
    So, this is a bipartisan bill produced by the Oregon 
congressional delegation with a BLM/city of Eugene alliance. We 
thank you very much for your cooperation.
    Senator Craig. Ron, thank you very much.
    Now let me turn to Senator Craig Thomas to make any 
comments he would like to make, and/or ask questions.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. OK, thank you, Mr. Chairman. I am sorry to 
be a little late. This is a busy time of year, as you know, all 
kinds of folks are here.
    I am particularly interested, as you might imagine, in the 
S. 2373. And I'm glad I got here in time for Mr. Benna's 
comments on it.
    This is a very important bill to a rather small town in 
Wyoming, a small town that is on I-80, which has a lot of 
traffic and a lot of travel; and lots of problems recently, as 
a matter of fact, because of travel. It's also in an area where 
there's a good deal of economic energy activity going on. And 
this little town is surrounded entirely by Federal land. And in 
order to have some expansion for the town, and then, maybe just 
as importantly, to have an alternative method of moving to some 
health activities in Rock Springs, which is a neighboring town, 
this land is necessary.
    So, I appreciate the agency being willing to do this. You 
mentioned working out some details. We'll be glad to work with 
you on that.
    And so, Mr. Chairman, I appreciate it, and hope we can move 
along with this bill.
    Senator Craig. Thank you very much, Craig, for those 
comments.
    I've got a couple of questions I'd like to ask, and then I 
think that will conclude the hearing.
    Doctor, in the Fort Reno Mineral Leasing Act, this bill 
calls for ratification of a science park instrument. Can you 
explain what it is we would be ratifying?
    Dr. Knipling. Yes, Mr. Chairman. The so-called science park 
is a 23-acre area within the confines of the larger laboratory 
land holdings that has been set aside for cooperative research 
with universities. Currently, we are providing, through an 
easement or a permit arrangement, space for the University of 
Oklahoma to occupy a research facility. We had to use this 
short-term easement permit instrument because we do not have 
long-term leasing authority in our agency. So, the so-called 
ratification would make whole, so to speak, and sustain, the 
current instrument for the longer term, but also then provide 
lease authority for similar potential future activities that 
might come up.
    Senator Craig. OK. Could you make sure that my staff has a 
complete copy of these documents?
    Dr. Knipling. Yes, we will.
    Senator Craig. Last, would leasing for oil and gas in any 
way interfere with the agricultural research currently 
occurring on the site?
    Dr. Knipling. No, we do not expect it to have any 
interference. With today's technology for oil and gas drilling, 
the wellhead at the surface occupies very little space, perhaps 
something less than the size of this room. And then, of course, 
that, in turn, services several hundred acres of underground 
resources. So, we expect the surface activity to be minimal, 
environmentally sound, unobtrusive, and have no effect on the 
research programs.
    Senator Craig. Surely. Thank you.
    Larry, several questions here. As it relates to the Nevada 
bill, it's my understanding that this bill would modify land-
sales authority provided under the Southern Nevada Lands Act. 
Has the Department implemented programs for ensuring 
accountability of the use of the funds generated by the 
program?
    Mr. Benna. Yes, Mr. Chairman, we have. And we are quite 
confident that the funds that are generated by the Southern 
Nevada Public Lands Management Act are being used effectively. 
We have a process in place that is a joint effort between all 
of the partners engaged in implementing SNPLMA, as it's called. 
This includes the Federal partners, as well as the cities of 
North Las Vegas and Henderson. It involves public participation 
and public review of projects and lands that are proposed for 
purchase or development with the funds that are developed from 
SNPLMA. The Secretary of the Interior makes the final decision 
on which projects go forward. Under this proposed bill, the 
funds that are generated from the sale of lands in this bill 
would go into the Southern Nevada Public Land Management Act 
special account at the same percentage as authorized under the 
Southern Nevada Public Lands Management Act.
    Senator Craig. This bill would not interfere with the 
Department's ability as it relates to accountability.
    Mr. Benna. Absolutely not.
    Senator Craig. OK.
    Mr. Benna. It should--would have no effect at all.
    Senator Craig. In the Eugene Land Conveyance Act, as a 
partner, BLM has supported this effort, to date, with both land 
and appropriated funds. Will this conveyance commit BLM to 
additional long-term costs as a function of this partnership?
    Mr. Benna. Mr. Chairman, I did want to start out by saying 
that we are very proud of this partnership. It's been in place 
since, I believe, 1994. And, as Senator Wyden has indicated, it 
is a very good model for both cooperative conservation and 
working together with local communities and partners.
    We have provided some monetary support to this project in 
the past. What is envisioned for the future, as Senator Wyden 
indicated, is the development of an environmental education 
center. That is being--it's envisioned to be funded, in part, 
by the partners. BLM's contribution to that is the land that we 
would be conveying under this bill. And that, in essence, would 
complete our financial obligation to the project.
    Senator Craig. OK. It's my understanding, in relation to 
the Green River conveyance, that the BLM currently has the 
authority to convey this land administratively. In the absence 
of legislating it, how long would it take for a complete 
conveyance of this property?
    Mr. Benna. I believe, Mr. Chairman, that the issue we have 
here is that the lands are not designated for disposal in a 
BLM--current BLM land-use plan. And for us to complete this 
transaction, we would have to do a plan amendment, which is, at 
times, a fairly lengthy process. The length of the process is, 
in good part, due to requirements for public participation and 
other administrative processes. There is also a NEPA, National 
Environmental Policy Act, requirement, as well. So, the time 
could take us up to a year or so to complete a plan amendment.
    Senator Craig. Up to a year?
    Mr. Benna. Yes.
    Senator Craig. That's kind of minimal, isn't it?
    Mr. Benna. It is an amendment.
    Senator Craig. Yes.
    Mr. Benna. And, again, depending on the issues that may 
arise with this----
    Senator Craig. Yes, I'm sure that's why the Senator is 
pursuing it in the method he is.
    Senator Thomas. It's already been pending for some time.
    Senator Craig. Last, Larry, in the Pechanga Band of the 
Luiseno Mission land transfer, I understand that just in the 
last 2 days BLM has discovered a 240 kV power line in trespass 
on lands to be conveyed in the Act, a power line that is nearly 
30 years old. I say this with a slight degree of disbelief. How 
does a power line of this size go undetected on your land for 
30 years?
    Mr. Benna. That's a very good question, Mr. Chairman.
    Senator Craig. That's why I ask it.
    [Laughter.]
    Mr. Benna. I think there's a few things at play here. I 
think one is, the lands where this power line crosses--and it's 
a very small segment of the BLM lands; I think there's about 12 
or so acres this power line infringes upon--is an isolated 
tract of BLM land. It's not used for any particular development 
purposes or anything. It's not frequently visited. So, it's 
just one of those instances where, I guess, when the power line 
was put in place----
    Senator Craig. Did the surveyors get it wrong at that time? 
Was that the problem?
    Mr. Benna. Possible. I mean----
    Senator Craig. There is not a right of way on that land for 
that power line?
    Mr. Benna. I think----
    Senator Craig. It's required.
    Mr. Benna. The power line was issued in 1979. And this was 
about 3 years or so after passage of the Federal Land Policy 
and Management Act. So, at that time, apparently, some of the 
paperwork, or whatever, was not in the best of shape that it 
could be in.
    Senator Craig. No, OK.
    Mr. Benna. And, again, we don't frequent this parcel very 
often, so----
    Senator Craig. So, what can be done to correct the 
situation in relation to this bill?
    Mr. Benna. Again, we would like a little time to think 
about this, because I did find out about this yesterday, as a 
matter of fact. But there are--I think there are several 
options that we can look at. And there are two general 
categories of the options that might be available. One is if 
there is an administrative remedy for this that would not 
require legislation, or an amendment, or a modification to the 
proposed legislation. There are some other options that could 
be either legislative in nature or a combination of legislative 
and administrative proposals. We'd like to have the opportunity 
to work with the subcommittee to try and work out some----
    Senator Craig. Well, we've got to get it right before we do 
it, that's for sure.
    All right. Gentlemen, thank you very much. As I've said, 
the record will remain open, for any additional questions or 
information to be submitted, for a period of 10 days. And we 
thank you very much for coming to testify today on these bills.
    Mr. Benna. Thank you, Mr. Chairman.
    Senator Craig. The committee will stand adjourned.
    [Whereupon, at 2:59 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                         Department of Agriculture,
                             Agricultural Research Service,
                                     Washington, DC, April 7, 2006.
Hon. James Inhofe,
U.S. Senate, Washington, DC.
    Dear Senator Inhofe: Your letter of March 20, 2006, asked for our 
comments on a white paper being circulated by the Cheyenne-Arapaho 
Tribes of Oklahoma regarding S. 1832, the Fort Reno Mineral Leasing 
Act. On March 27, 2006, we sent a preliminary response. Since then, we 
have received additional assistance from our Office of the General 
Counsel in providing you with more detailed information on this matter. 
Therefore, we ask that you include this supplementary letter in the 
hearing record.
    There is a long history concerning the Cheyenne-Arapaho Tribes' 
claims to the Federal lands now comprising the Grazinglands Research 
Laboratory at Fort Reno administered by the Agricultural Research 
Service. We believe the basic facts are undisputed.

  <bullet> The original Cheyenne and Arapaho Indian Reservation 
        encompassed about 4 million acres in western Oklahoma and 
        included the Fort Reno lands.
  <bullet> From the original reservation, President Chester Arthur 
        created the Fort Reno Military Reserve by an executive order 
        dated July 17, 1883. Neither the original request for the 
        military reserve, nor the executive order setting it aside 
        provided that the lands revert to the Tribe at any time in the 
        future.
  <bullet> In 1890, the Tribes agreed to cede 4.6 million acres to the 
        United States including the Fort Reno site. By that agreement, 
        the Tribes agreed to ``cede, convey, transfer, relinquish, and 
        surrender forever and absolutely, without any reservation 
        whatever, express or implied, all their claim, title and 
        interest of every kind and character in and to the lands.'' (26 
        State 1022).
  <bullet> This cession agreement was duly ratified by Congress in 1891 
        (26 Stat. 1022), and the Tribes were paid $1,500,000 in 
        compensation.
  <bullet> In 1948, the Fort Reno lands were transferred from the Army 
        to the Department of Agriculture by enactment of Public Law 80-
        494 (62 Stat. 197).
  <bullet> Congress passed legislation in 1920 (41 Stat. 738), 1926 (44 
        Stat. 769) and 1928 (45 Stat. 380) which authorized the Tribes 
        to sue the United States to settle outstanding claims. The 
        Tribes sued in 1929, but the case was dismissed in 1941 for 
        failure to prosecute. (92 Ct. Cl. 607).
  <bullet> Acting pursuant to the Indian Claims Commission Act of 1946, 
        the Tribes brought claims against the United States. In a 1965 
        settlement, damages in the amount of $15 million were paid to 
        the Tribes to ``finally settle and dispose of all rights, 
        claims or demands which the petitioner has asserted or could 
        have asserted.'' (16 ICC 162).

    Based on the above, which are matters of public record, we believe 
that it is settled that the Fort Reno lands were severed from the 
Tribes reservation in 1883, and that compensation to the Tribes was 
paid in 1891 and again in 1965.
    We disagree with the Tribes contention that the United States 
Government agreed to return Fort Reno to the Tribes when the lands 
ceased to be used for military purposes and that they were never 
compensated. The Tribes contend the 1883 executive order provides for a 
return of the lands when it stated: ``that whenever any portion of the 
land so set apart may be required by the Secretary of the Interior for 
Indian purposes, the same shall be abandoned by the military upon 
notice to that effect to the Secretary of War.'' However, this language 
does not provide a reverter of the lands, but rather conditions for the 
transfer of the land to Interior on a determination by the Secretary of 
the Interior that such lands are necessary for Indian purposes. No such 
determination was made prior to Congress' transfer of Fort Reno to the 
Department of Agriculture in 1948.
    Further, any question about reversion was clearly resolved by 
superseding events, namely the 1891 ratification of the agreement 
between the United States Government and the Tribes, and the settlement 
of the claims asserted before the Indian Claims Commission. Indeed, the 
1890 agreement ceding land to the United States expressly states that 
the Tribes agreed:

         . . . to cede, convey, transfer, relinquish, and surrender 
        forever and absolutely, without any reservation whatever, 
        express or implied, all their claim, title and interest of 
        every kind and character in and to the lands.
                           (26 Stat. 1022), emphasis added.

    The Tribes' March 2006, memorandum alludes to the opinion of the 
Solicitor of the Department of the Interior as supporting their claims. 
In an internal memorandum dated February 26, 1999, the Solicitor did 
write on this subject saying that the Tribes have ``credible 
arguments'' to support their claims. This Agency and our legal counsel 
disagree with the Solicitor's memorandum as a matter of both fact and 
law. The above facts clearly show the lands in question were ceded to 
the United States and compensation paid to the Tribes.
    As a final note, the Tribes allege that S. 1832 is designed to 
prevent the Tribes from regaining their land. As previously stated, 
these are not Tribal lands. In the 1980s the Tribes alleged that the 
lands were underutilized and, as a consequence, should be declared 
surplus so that the Tribes could take them over. We disagree. Acting 
according to law and in the public interest, we believe that the 
Agricultural Research Service has been a responsible and effective 
steward of the Fort Reno lands. We have no plans or intentions of 
declaring any of these lands as excess or surplus to our needs. The 
research we are providing American agriculture at the Grazinglands 
Research Laboratory is significant and demonstrable, and will be 
continued.
    Thank you for the opportunity to provide these comments.
            Sincerely,
                                        Edward B. Knipling,
                                                     Administrator.
                                 ______
                                 
                            City of Eugene, Oregon,
                                            Mayor's Office,
                                        Eugene, OR, March 23, 2006.
Sen. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
Sen. Ron Wyden,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Chair Craig and Ranking Member Wyden: Thank you for scheduling 
a hearing on the Eugene Land Conveyance Act of 2005 (S. 2150) and 
allowing this opportunity to comment on the legislation.
    Since 1994, the Congress has been actively engaged in supporting 
the West Eugene Wetlands by providing over $11 million to fund 
preservation and conservation of critical wetlands in the Eugene area. 
The West Eugene Wetlands Partnership formed in 1994, including the City 
of Eugene and the Bureau of Land Management, and has since grown to 
include the Eugene School Districts 4J and Bethel 52, U.S. Fish and 
Wildlife Service, U.S. Army Corps of Engineers and the nonprofit 
organization, Willamette Resources and Educational Network (WREN), as 
well as the BLM and the City of Eugene. This partnership meets 
regularly to identify and resolve planning, funding and operating 
issues for the West Eugene Wetlands Area. A critical component of this 
effort is a creation of a permanent environmental education center in 
the West Eugene Wetlands Plan Area.
    To accomplish this, the City requests congressional approval for 
this land transfer from BLM to the City for the education campus site. 
The site targeted for the center is the federally-owned BLM property 
that is commonly known as the ``Red House'' property at 751 S. Danebo 
Street in Eugene, Oregon.
    This property was chosen as the desired location for the education 
center for several important reasons: (a) its location in the heart of 
the West Eugene Wetlands; (b) it is already in public ownership; (c) it 
is easily accessible off of West 11th Avenue and the Fern Ridge bike 
path; and (d) it has served as the hub of activity in the wetlands area 
since the original West Eugene Wetlands partnership was formed in 1994.
                 west eugene wetlands education center
    The West Eugene Environmental Education Center is a planned campus 
with several major components:

  <bullet> Resident classrooms, laboratory, and greenhouse,
  <bullet> West Eugene Wetland Partnership office, reference library 
        building, interpretive wing, and greenhouse,
  <bullet> Public building that includes an exhibit hall, auditorium, 
        and three classrooms.

    The Rachel Carson Natural Resource School will be moved from its 
current location at Churchill High School to this site adjacent to 
Amazon Creek and the West Eugene Wetlands. The intent is to convert the 
program into a magnet school with several districts in Lane County 
eligible for its services. It will initially serve up to 60 students 
for Phase 1 and 120 students at full build out. It will eventually 
contain additional classroom facilities for participating youth corps 
programs, including adjudicated youth.
    Since 2002, the City and its partners have provided educational and 
interpretative programs to school groups, families, and adults; serving 
8,975 participants. An onsite yurt is the temporary classroom. 
Volunteers log more than 500-hours annually. Adults, college and high 
school students mentor, lead educational programs, and assist with 
wetland restoration. The existing program is not sustainable without a 
permanent structure. Primitive conditions meet minimal safety and 
sanitary standards, do not allow for year-round programming, nor meet 
universally accessible requirements (ADA) or the growing need for 
community programs.

                              BLM TRANSFER

    The interagency partnership working on the education center came to 
two points of agreement regarding the Red House parcel. One, the Red 
House parcel presented the best site for the education center, due to 
its central location within the WEW, its proximity to public transit 
and bicycle transportation routes, and its public ownership status. The 
education partnership also agreed that construction, operation, and 
governance of the education center would function most smoothly if the 
Red House parcel moved to City ownership.
    The City has experience in developing and running public facilities 
with partner agencies and groups, such as the 4J school district; City 
government is designed to reflect local preferences, interests, and 
needs, keeping the education center focused on the community it serves; 
and City ownership provides a platform that is more attractive to 
foundation and granting organizations than is federal ownership, 
allowing greater success in the realm of private fund raising.
    In conclusion, this transfer will enable the West Eugene Wetlands 
Partnership to proceed with plans for a visionary education center in 
West Eugene, and enhance the Congress' support for the West Eugene 
Wetlands. For all these reasons, the City of Eugene urges you to 
support the Eugene Land Conveyance Act (S. 2150). Thank you for your 
consideration.
            Sincerely,
                                              Kitty Piercy,
                                                             Mayor.
                                 ______
                                 
                          San Diego Gas & Electric,
                                   a Sempra Energy Utility,
                                     San Diego, CA, March 31, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Larry B. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.

Re: Comments for the Record, H.R. 3507

    Dear Chairmen Domenici and Craig: We are writing to provide our 
formal comments for the record regarding H.R. 3507, a bill to transfer 
certain Bureau of Land Management (BLM) lands and improvements thereon 
in Riverside and San Diego counties to the Pechanga Band ofLuiseno 
Mission Indians (Tribe), to be held in trust for the Tribe. We ask that 
our letter be included in its entirety in the hearing record for the 
March 29, 2006 hearing on H.R. 3507 before the Subcommittee on Public 
Lands and Forests.
    H.R. 3507 will transfer over 900 acres in the California counties 
of Riverside and San Diego from the BLM to the Pechanga Tribe (Tribe). 
San Diego Gas & Electric (SDG&E) has determined that, due to some 
unresolved survey issues, approximately 1500 feet of an existing 51-
mile SDG&E 230 kV transmission line is likely inadvertently located 
within the property to be conveyed to the Pechanga Tribe at the 
immediate southern boundary in San Diego county. The affected area is 
believed to be approximately 12.82 acres, as generally shown on the 
maps included with this letter.
    The 230 kV transmission line was originally built in the 1970's in 
a 300 foot wide corridor. With the exception of this small piece of the 
line, the remainder of the transmission corridor immediately south of 
the likely affected area is otherwise located on SDG&E fee land.
    This 230 kV transmission line is an integral part of SDG&E's 
service network. The line generally carries power into our Escondido 
substation, and at other critical times supplies power to our Orange 
County customers. The line is essential in helping to manage congestion 
and overloads throughout the SDG&E transmission system.
    As drafted, H.R. 3507 would transfer both the underlying lands, and 
any transmission facilities determined to be on those lands, to the 
Tribe in trust upon enactment. It is clear that the intent of H.R. 3507 
was not to transfer the existing SDG&E transmission line; neither the 
BLM nor the Company was aware until recently of this boundary issue.
    SDG&E is committed to working with the Congress, the BLM, and the 
Pechanga Tribe to address this newly-discovered boundary issue in the 
most expeditious and fair manner possible. We believe that the affected 
acreage on which a small portion of the existing 230 kV transmission 
line corridor may run should be excluded from transfer to the Tribe in 
order to preserve SDG&E's flexibility to address, among other things, 
necessary maintenance and access issues for this critical transmission 
corridor over the long-term.
            Sincerely,
                                            James P. Avery,
                                    Senior Vice President-Electric.
[Enclosures.]


</pre></body></html>
